                        U.S. SMALL BUSINESS ADMINISTRATION
                              OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20416


                                                                    MEMORANDUM
                                                                    AUDIT REPORT
                                                               Issue Date: November 26,
                                                               1997

                                                               Number: 8-6-F-007-003


To:           John E. Scott, II,
              District Director, Las Vegas District Office

From:         Peter L. McClintock
              Assistant Inspector General for Auditing

Subject:      Nevada State Development Company
              Audit of Loan Origination and Servicing Practices

        We have completed our audit of the Nevada State Development Company (Nevada
State) loan origination and servicing practices. The audit objective was to determine whether
there was compliance with SBA policies and procedures related to the Small Business
Administration (SBA) Section 504 Program.

         Fifteen loans valued at $9.6 million originated by the CDC and approved by SBA were
randomly selected for review (Exhibit B). We performed detailed examinations of the 15 loan
files, interviewed SBA and Nevada State officials and borrowers, and visited projects. This
was the first audit of Nevada State operations. The audit was conducted in accordance with
Government Auditing Standards.

                                        Background

        The 504 Loan Program was established to foster economic development, create or
preserve job opportunities, and stimulate small business growth, expansion, and
modernization. Under this program, the Certified Development Company (CDC) was created
to help small businesses obtain interim and permanent financing for the construction or
purchase of real property used in business operations.

      Permanent financing for each project requires small businesses to contribute a
minimum of 10 percent of total project costs with up to 40 percent provided from the sale of



                                              1

debentures guaranteed by SBA. These debentures are collateralized by a second lien on the
property. The remainder of the financing comes from the private sector or a bank loan
collateralized by a first lien on the property.

       SBA certified Nevada State, a for profit corporation, as a CDC in 1983. Nevada State
approved 408 loans valued at $125.4 million from its inception to September 1996 (Exhibit
A). Title 13 Code of Federal Regulations Section 120.826 requires CDC’s to operate in
accordance with applicable statutes and regulations including SBA’s standard operating
procedures. CDC’s must also maintain records as required by SBA.

                                       Results of Audit

         While Nevada State generally complied with SBA’s 504 Loan Program policies and
procedures, loan files did not always contain documents relative to capital injection, site
visits, collateral condition, or loan closing correspondence. Consequently, there was no
evidence that SBA’s policies and procedures, designed to minimize the risks associated with
loan origination and closing, were followed.

       Standard Operating Procedure (SOP) 50 22 3, Section 24e, states that a CDC shall
maintain information and documents related to its loan portfolio for SBA review, including:

       (1) Evidence of the 10 percent capital injection
       (2) Evidence of field visits
       (3) Condition of the collateral
       (4) All correspondence related to the loan prior to closing

Examples of the deficiencies follow:

       •   	Two of the fifteen loan files did not have evidence of the capital injection
            requirement. The Nevada State representative stated the firm had implemented
            new procedures during the last six months which should resolve this deficiency.
            The new procedure instructs the borrowers of the documentation requirements and
            indicates what is acceptable proof of capital injection.

       •   	Site visit reports were not available for five of the fifteen loans reviewed.
            Borrowers stated that they were not aware of any site visits. The Nevada State
            representative stated its site visits were unannounced and the borrowers may not
            have been aware of their presence.

       •   	Construction phase records were missing for all 15 projects. The loan file
            documents did not indicate the status of the projects after the SBA loan
            authorization was issued nor show which projects were completed. The Nevada
            State representative stated the status of each project was verbally discussed during
            the construction process with results maintained on a spreadsheet.



                                               2

       •   	Three of the fifteen loan files did not contain copies of bank commitment letters or
            a statement that the bank would not finance the entire project without SBA
            participation.

Recommendation

1.     We recommended that the District Director, Las Vegas District Office direct Nevada
State Development Company to maintain loan file documents in accordance with SBA SOP
50 22 3.

Management’s Response

       The District Director stated that the findings were discussed with the CDC Director
who stated they had already implemented the necessary procedures to correct the finding and
implement the recommendation. A copy of the response is included as Attachment 1.


                                           *********

        The finding included in this report is the conclusion of the Office of Inspector
General's Auditing Division based on testing of the auditee's operation. The finding and
recommendation are subject to review, management decision, and corrective action by your
office in accordance with existing Agency procedures for audit follow-up and resolution.

        Please sign the attached SBA Form 1824, “Recommendation Action Sheet” indicating
that the recommendation has been implemented. We would appreciate receipt of the form
within the stated timeframes.

       This report may contain proprietary information subject to the provisions of 19 USC
1905 and must not be released to the public or another agency without the permission of the
Office of Inspector General.

Attachments




                                               3

                                             EXHIBIT A




 NEVADA STATE DEVELOPMENT COMPANY


       Loans Approved by Year and Amount




                Loans
               Approved
Fiscal Year                      Value ($)
   1983           02               245,000
   1984           05             1,611,000
   1985           14             2,983,000
   1986           17             3,308,000
   1987           11             2,175,000
   1988           15             3,207,000
   1989           22             4,834,000
   1990           23             5,076,000
   1991           27             9,431,000
   1992           37            10,054,000
   1993           36            13,419,000
   1994           58            19,755,000
   1995           64            23,822,000
   1996           77            25,493,000
  Totals         408          $125,413,000
                                                                    EXHIBIT B




                  NEVADA STATE DEVELOPMENT COMPANY


                         Loans Selected and Reviewed



 Loan Number                Borrower Name                 Date         Approved
                                                        Approved        Amount

(FOIA Deletion)     (FOIA Deletion)                      (FOIA            $288,000
                                                        Deletion)

(FOIA Deletion)     (FOIA Deletion)                      (FOIA             640,000
                                                        Deletion)

(FOIA Deletion)     (FOIA Deletion)                      (FOIA             750,000
                                                        Deletion)

(FOIA Deletion)     (FOIA Deletion)                      (FOIA           1,000,000
                                                        Deletion)

(FOIA Deletion)     (FOIA Deletion)                      (FOIA             632,000
                                                        Deletion)

(FOIA Deletion)     (FOIA Deletion)                      (FOIA             125,000
                                                        Deletion)

(FOIA Deletion)     (FOIA Deletion)                      (FOIA             671,000
                                                        Deletion)

(FOIA Deletion)     (FOIA Deletion)                      (FOIA             558,000
                                                        Deletion)

(FOIA Deletion)     (FOIA Deletion)                      (FOIA             619,000
                                                        Deletion)

(FOIA Deletion)     (FOIA Deletion)                      (FOIA           1,000,000
                                                        Deletion)

(FOIA Deletion)     (FOIA Deletion)                      (FOIA           1,000,000
                                                        Deletion)

(FOIA Deletion)     (FOIA Deletion)                      (FOIA             605,000
                                                        Deletion)

(FOIA Deletion)     (FOIA Deletion)                      (FOIA             547,000
                                                        Deletion)
(FOIA Deletion)   (FOIA Deletion)          (FOIA        504,000
                                          Deletion)

(FOIA Deletion)   (FOIA Deletion)          (FOIA        655,000
                                          Deletion)

                            Total Value               $9,594,000
                                                 RECOMMENDATION ACTION SHEET                                                       Page 1 of 1
                                                   SBA AUDIT FOLLOWUP SYSTEM

AUDITEE: Nevada State Development Company
AUDIT TITLE: Audit of Loan Origination and Servicing
             Practices
GRANT/CONTRACT/LICENSE #:                                                               RECOMMENDATION: 1
QUESTIONED COST: $                                                                      REPORT NUMBER: 8-6-F-007-003
UNSUPPORTED AMOUNT: ($        )                                                         DATE ISSUED: November 26, 1997

FUNDS FOR BETTER USE: $
                                                TYPE:       Internal               External        X


    RECOMMENDATION                     Action           Program          Mgt.          Final             Amount                    Code
                                       Office            Code          Response       Decision
      (SBA Form 1779)                                                  Due Date       Due Date
                                                                                                                           1              2

                                       0944               504           1/16/98        5/27/98             N/A             N

   RECOMMENDATION NO:              1                                                 Amount unsupported in Q code:      N/A

 Direct Nevada State Development Company to maintain loan file documents in accordance with SBA SOP 50 22 3.




 MANAGEMENT DECISION               Management       Target Date             OIG Assessment               Amount                    Code
                                   Concurrence        for FA
      (SBA Form 1781)                (Yes/No)                                                                                  1          2
                                                                       Agreed ?       Referred ?

                                        YES               N/A

                                                                                    Amount unsupported in QD code:

 The CDC Director has implemented procedures to ensure that loan file documents are maintained             (Attach extra sheet if necessary.)
 in accordance with SBA SOP 50 22 3.

 Originating Official Signature:                                                                                        Date:

 Approving Official Signature:                                                                                          Date:

 OIG Signature:                                                                                                         Date:

                                    Date FA           Non-                  Disallowed Costs                Funds Put to Better Use
        FINAL ACTION               Completed        Monetary
                                                    Results ?
      (SBA Form 1780)
                                                                   Recoveries         Write-Offs       Implemented      Not Implemented
                                                                     Code




                                                                                                           (Attach extra sheet if necessary.)

 Originating Official Signature:                                                                                        Date:

 Approving Official Signature:                                                                                           Date:


 SBA Form 1824 (3-92)                               (See SOP 90-15-1 for Instructions on the three forms; see attached for lists of codes.)
                                                                                                                                 Attachment 2


                                      OFFICE OF INSPECTOR GENERAL
                                           AUDITING DIVISION

                                         AUDIT REPORT DISTRIBUTION


Recipient                                                                                                               Number of Copies

Associate Deputy Administrator for
Economic Development............................................................................................................ 1


Associate Administrator for

Financial Assistance ................................................................................................................. 1


Associate Administrator for

Field Operations........................................................................................................................ 1


General Counsel......................................................................................................................... 2


Office of the Chief Financial Officer......................................................................................... 1

Attention: Jeff Brown


District Director, Las Vegas District Office............................................................................... 1

